                    June 30, 2000

                    A. KEITH STRANGE
                    VICE PRESIDENT, PURCHASING AND MATERIALS

                    PAUL E. VOGEL
                    ACTING VICE PRESIDENT, NETWORK OPERATIONS
                     MANAGEMENT


                    SUBJECT:	     Priority Mail Processing Center Network 1999
                                  Christmas Operation
                                  (Report Number DA-MA-00-002)

                    This management advisory report presents the results of
                    our review of the Priority Mail Processing Center Network
                    1999 Christmas operations (Project Number
                    00PA015DA000). The objective of our review was to
                    evaluate whether capacity problems encountered during the
                    previous Christmas seasons were still occurring.

Results in Brief	   The performance of the Priority Mail Processing Center
                    Network’s 1999 Christmas operations had improved over
                    operations in 1998. However, problems with network airlift
                    and processing capacity experienced in previous years still
                    existed. As in previous years, the Postal Service processed
                    and transported some Priority Mail in lieu of the Priority Mail
                    Processing Center Network contractor. We offered two
                    suggestions to correct the issues identified in this report.
                    Management agreed with our suggestions and the actions
                    taken or planned should address the issues identified in this
                    report.

Background 	        In April 1997 the Postal Service awarded a $1.7 billion, five-
                    year contract to establish a pilot network of ten Priority Mail
                    processing centers on the East coast of the United States.
                    Five of the ten sites were operational by
                    December 1997, and the remaining five sites were activated
                    by June 1998. This pilot network was established to
Priority Mail Processing Center Network                                                          DA-MA-00-002
 1999 Christmas Operation


                                  determine if removing the processing of Priority Mail from
                                  the processing and distribution centers would improve
                                  delivery scores.

                                  The contractor is required to transport mail between the
                                  Priority Mail processing centers and the Postal Service
                                  Priority Mail area distribution centers. Dedicated/designated
                                  airlift1 and commercial air/surface transportation are used by
                                  the contractor to transport Priority Mail.

Prior Audit Coverage              Our review of 1998 Christmas operations planning2
                                  identified two areas where a high potential for problems
                                  existed:

                                  •	 Facility capacity at Nashua Priority Mail Processing
                                     Center.
                                  •	 Airlift capacity serving the Nashua, Rochester,
                                     Springfield, and Jacksonville Priority Mail Processing
                                     Centers.

                                  We also issued a report in September 1999 entitled Priority
                                  Mail Processing Center Network (DA-AR-99-001). In that
                                  report, we disclosed that Priority Mail processed through the
                                  network cost 23 percent more than Priority Mail processed
                                  by the Postal Service without a network. In addition, we
                                  found that the Priority Mail Processing Center Network was
                                  not meeting overall delivery rate goals referenced in the
                                  contract. We provided management six recommendations
                                  to control costs, capture savings, and improve performance.
                                  Management generally agreed with our recommendations
                                  and planned actions addressed the issues presented.

Objective, Scope, and             Our objective was to determine whether capacity problems
Methodology                       encountered during previous Christmas operations were still
                                  occurring.

                                  To complete the objective, we reviewed documents and
                                  reports relating to the 1998 and 1999 Priority Mail
                                  processing center Christmas operations. We interviewed
                                  Postal Service Headquarters and pertinent area officials,
                                  technical liaisons, and the independent auditors. We visited
                                  all ten of the Priority Mail processing center facilities,

1
    Dedicated/designated airlift is transportation provided on the contractor’s aircraft.
2
    Priority Mail Network–Christmas Plan 1998, (Report Number DA-LA-99-001), dated November 24, 1998.




                                                        2
Priority Mail Processing Center Network                                               DA-MA-00-002
 1999 Christmas Operation


                               including annexes and cross docks. We also contacted
                               Postal Service officials at 8 processing and distribution
                               centers and 26 airport mail centers/facilities.

                               This review was conducted between December 1999 and
                               May 2000 in accordance with the President’s Council on
                               Integrity and Efficiency, Quality Standards for Inspections.
                               We discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

Airlift Capacity	              We found performance during the 1999 Christmas
                               season improved over 1998. However, 1999 Christmas
                               season operations continued to be impacted by
                               insufficient processing and airlift capability similar to that
                               reported by the Priority Mail Processing Center Network
                               1998 PMPC Christmas Operations Assessment.

                               During the 1999 Christmas season, the network
                               experienced problems with airlift capacity. In particular,
                               airlift delays were caused by the refusal of commercial
                               airlines to accept or transport Priority Mail. The reasons for
                               refusal included delayed delivery of mail to the airlines and
                               airport backlogs of mail. Delays were also reported at
                               transfer points due to airlift capacity limitations and
                               misrouting of mail.

                               Due to airlift issues, the Postal Service repossessed
                               1.07 million pounds of Priority Mail at 12 airports and
                               rerouted it via commercial airlift or surface carrier contracts.
                               Included in this amount was over 140,000 pounds of mail
                               the network refused or misrouted. Table I summarizes the
                               amount and location of the mail the Postal Service reported
                               as repossessed during the 1999 Christmas season.




                                                  3
Priority Mail Processing Center Network                                                        DA-MA-00-002
 1999 Christmas Operation



                                                              TABLE I
                                                      1999 Christmas Season
                                                                                            3
                                     Delayed Priority Mail Repossessed by the Postal Service

                                                       Airport Weight in Pounds
                                                    Chicago         386,621
                                                    Philadelphia    218,473
                                                    Atlanta         105,647
                                                    Minneapolis      81,853
                                                    Dayton           80,329
                                                    Dallas           51,446
                                                    Phoenix          41,855
                                                    Seattle          39,490
                                                    Pittsburgh       34,300
                                                    Denver           18,485
                                                    Detroit            8,449
                                                    Jacksonville       4,575
                                                    Total         1,071,523

                                As a result of repossessing Priority Mail, the Postal Service
                                may have incurred additional transportation costs. Although
                                estimates of these costs were not available at the time of
                                our review, the Priority Mail network program manager
                                indicated the Postal Service would determine its costs for
                                transporting repossessed Priority Mail and bill the
                                contractor. However, while the Postal Service indicated it
                                planned to recover its costs, it had not yet billed the
                                contractor for mail repossessed during the 1998 Christmas
                                season. According to the contracting officer, the Postal
                                Service had not billed the contractor for 1998 because of
                                ongoing negotiations over additional reimbursement sought
                                by the contractor for 1999 operations. However, we believe
                                any postponement of cost recovery beyond the ongoing
                                negotiations is inappropriate.

Capability to Handle            Since 1997, the Postal Service Priority Mail Processing
Christmas Volume                Center Network has diverted mail to Postal Service facilities
                                for processing and distribution. While the Priority Mail
                                network’s 1999 Christmas plan established that mail
                                volumes exceeding the networks capacity would be
                                processed by the Postal Service, the diversion of mail was
                                not budgeted for by local facilities. During the 1999
                                 Christmas season, 7.7 million pieces of Priority Mail were
3
 OIG developed Table I using PS Forms 2734-A (Air Transportation Pay and Routing Adjustment) prepared by the
airmail centers/facilities.




                                                      4
Priority Mail Processing Center Network                                                 DA-MA-00-002
 1999 Christmas Operation


                               diverted to postal facilities, increasing Postal Service costs
                               by approximately $1.8 million. Table II presents these
                               estimated costs to process by area.

                                                              TABLE II
                                                      1999 Christmas Season
                                     Impact of Priority Mail Diversion on Postal Service Areas

                                                              Number of Pieces
                                           Area                (000 Omitted)           Total Cost
                                 Allegheny                        3,793                     $749,698
                                 New York Metro                     414                       65,790
                                 Northeast                        3,000                      906,300
                                 Southeast                          533                      101,596
                                 Total                            7,740                  $ 1,823,384

                               Postal Service area officials tracked the cost of the diverted
                               volume during the prior Christmas seasons and requested
                               reimbursement from Postal Service Headquarters. While a
                               $1.18 million budget adjustment was planned for the 1997
                               Christmas season, area officials indicated no adjustment
                               was made for the 1998 Christmas season. The manager of
                               the Priority Mail Processing Center Network considered
                               reimbursement for the processing of diverted Priority Mail
                               the responsibility of Postal Service Headquarters Finance
                               because the activity is an expense for which the contractor
                               receives no compensation.

Suggestion                    1. We suggest the vice president, Purchasing and
                                 Materials, ensure that the Postal Service is reimbursed
                                 for costs associated with repossessed Priority Mail
                                 during the 1998 and 1999 Christmas seasons as part of
                                 the settlement of the current contractor’s claims.

Management’s                   Management agreed with the suggestion. The Postal
Comments                       Service Contracting Officer for the Priority Mail Processing
                               Center contract recommended that the cost associated with
                               repossessed Priority Mail during the 1998 and 1999
                               Christmas seasons be treated as part of the final settlement
                               of the current contractor’s claims.




                                                   5
Priority Mail Processing Center Network                                           DA-MA-00-002
 1999 Christmas Operation



Suggestion                    2. We suggest the vice president, Network Operations
                                 Management ensure that Historical data on diverted
                                 network costs be provided to Postal Service facilities so
                                 that they can plan and budget for diverted network
                                 Priority Mail.

Management’s                   We agree with the suggestion. For this year we will again
Comments                       plan volume diversions in concert with the Areas, Plants,
                               and Districts as a countermeasure to the capacity shortfalls
                               we expect this December. This planning will consider not
                               only the historical record but projections of this coming
                               season’s volume as well.

Evaluation of                  Management’s actions taken and planned are responsive to
Management’s                   our suggestions.
Comments

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions or
                               need additional information, please contact Tracy A.
                               LaPoint, director, Developmental, or me at (703) 248-2300.



                               Richard F. Chambers
                               Deputy Inspector General

                               cc:	 Robert T. Davis
                                    Gary L. McCurdy
                                    David L. Solomon
                                    Jon M. Steele
                                    Mike D. Cronin
                                    John F. Kelly
                                    John R. Gunnels




                                                 6
Priority Mail Processing Center Network               DA-MA-00-002
 1999 Christmas Operation


                    APPENDIX. MANAGEMENT”S COMMENTS




                                          7
Priority Mail Processing Center Network       DA-MA-00-002
 1999 Christmas Operation




                                          8
Priority Mail Processing Center Network       DA-MA-00-002
 1999 Christmas Operation



Major Contributors to
This Report




                                          9
